  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL



    THE NATIONAL INSTITUTE OF
 ENVIRONMENTAL HEALTH SCIENCES
   ADMINISTERED ITS SUPERFUND
APPROPRIATIONS DURING FISCAL YEAR
2013 IN ACCORDANCE WITH FEDERAL
          REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General
                                                     for Audit Services

                                                       September 2014
                                                        A-04-14-04024
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                           INTRODUCTION

 The National Institute of Environmental Health Sciences administered its Superfund
 appropriations during fiscal year 2013 in accordance with Federal requirements.

WHY WE DID THIS REVIEW

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980
(CERCLA) (42 U.S.C. § 9601 et seq) established the Hazardous Substance Response Trust
Fund, which is commonly known as the Superfund. The National Institute of Environmental
Health Sciences (the Institute) receives an annual Superfund appropriation to carry out functions
mandated by the CERCLA.

The CERCLA requires the Inspector General of a Federal organization with Superfund
responsibilities to audit all uses of the fund in the prior fiscal year (42 U.S.C. § 9611(k)). To
meet this requirement, the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG) conducts an annual audit of the Institute’s use of its Superfund
appropriations. (See Appendix A for a list of related OIG reports.)

OBJECTIVE

Our objective was to determine whether the Institute administered its Superfund appropriations
during fiscal year (FY) 2013 in accordance with applicable Federal requirements.

BACKGROUND

Superfund

The CERCLA was extended and amended by the Superfund Amendments and Reauthorization
Act of 1986. The Superfund is used to respond to emergency environmental conditions that are
hazardous to health and to pay for the removal of toxic substances.

The Institute receives funding to carry out functions mandated by the CERCLA. In carrying out
its Superfund responsibilities for FY 2013, the Institute obligated approximately 5 percent of
these funds for administrative costs and awarded the remaining 95 percent as grants to other
organizations to:

    •   train persons who are engaged in handling hazardous waste and managing facilities
        where hazardous waste is located and

    •   conduct research, including using advanced techniques, methods, and technologies to
        detect, assess, and evaluate the effects of hazardous substances on human health and to
        reduce the amount and toxicity of those substances.




National Institute of Environmental Health Sciences Superfund—Fiscal Year 2013 (A-04-14-04024)      1
National Institute of Environmental Health Sciences

The Institute, located in Research Triangle Park, North Carolina, is 1 of 27 Institutes and Centers
of the National Institutes of Health (NIH), which is a component of HHS. NIH provides the
Institute with direction and other administrative and professional services.

HOW WE CONDUCTED THIS REVIEW

Our audit covered all obligations and disbursements related to FYs 2008 through 2013
Superfund appropriations that occurred from October 1, 2012, through September 30, 2013
(audit period). 1 During the audit period, the Institute obligated 2 approximately $75 million and
disbursed approximately $80 million in Superfund resources. Of the $80 million in
disbursements, $4 million came from FY 2013 funds and $76 million came from prior period
funds.

We judgmentally selected for review a sample of 10 Superfund grants to determine the status of
report submissions and whether the Institute performed grants monitoring activities. We also
judgmentally selected a sample of 43 salary and related transactions to determine whether
employee costs to administer the Superfund were allowable.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains
Federal requirements.

                                           RESULTS OF AUDIT

The Institute administered its Superfund appropriations during FY 2013 in accordance with
applicable Federal requirements. Accordingly, this report contains no recommendations.




1
 Because annual appropriations may be disbursed up to 5 years beyond the appropriation year, our scope included
obligations and disbursements of FY 2008 through FY 2012 appropriations, as well as those of FY 2013.
2
  “Obligated” funds are amounts for which the Federal agency has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions that will require payment immediately or in
the future (GAO-05-734SP Budget Glossary, p. 70).



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2013 (A-04-14-04024)                     2
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:
                        AUDITS OF SUPERFUND

                           Report Title                              Report Number         Date Issued

   The National Institute of Environmental Health                   A-04-13-01025                4/2014
   Sciences Generally Administered Its Superfund
   Appropriations During Fiscal Year 2012 in
   Accordance With Federal Requirements
   Superfund Financial Activities at the National Institute         A-04-12-01013                7/2012
   of Environmental Health Sciences—Fiscal Year 2011

   Superfund Financial Activities at the National Institute         A-04-11-01099                6/2011
   of Environmental Health Sciences—Fiscal Year 2010

   Superfund Financial Activities at the National Institute         A-04-10-01076                8/2010
   of Environmental Health Sciences—Fiscal Year 2009

   Superfund Financial Activities at the National Institute         A-04-09-01062                7/2009
   of Environmental Health Sciences for Fiscal Year 2008




National Institute of Environmental Health Sciences Superfund—Fiscal Year 2013 (A-04-14-04024)            3
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered all FYs 2008 through 2013 obligations and disbursements of Superfund
appropriations made during the period October 1, 2012, through September 30, 2013. 3 During
this period, the Institute obligated approximately $75 million and disbursed approximately
$80 million in Superfund resources. Of the $80 million in disbursements, $4 million came from
FY 2013 funds and $76 million came from prior period funds.

We did not audit disbursements by grantees because grantee disbursements are subject to
independent audits under 45 CFR § 74.26.

We performed fieldwork at Institute offices in Research Triangle Park, NC, from April through
July 2014.

METHODOLOGY

To accomplish our audit objective, we:

    •   reviewed applicable laws and regulations regarding Superfund appropriations;

    •   reviewed our FY 2012 Superfund audit report (A-04-13-01025) and determined that the
        report contained one finding requiring followup; 4

    •   traced NIH accounting records to the Institute’s list of all Superfund financial
        transactions recorded from October 1, 2012, through September 30, 2013, to determine
        the accuracy and completeness of the Institute’s listing;

    •   traced approximately $71 million in obligations to 70 research and training grant award
        documents to determine whether grant awards were properly recorded;

    •   reviewed each grantee’s Notice of Award to confirm the Institute provided funds for
        Superfund activities;

    •   determined whether grantees had submitted audits to the Federal Audit Clearinghouse in
        accordance with Office of Management and Budget Circular A-133 and, if so, whether
        the audit reports contained any significant findings related to the Superfund;

3
 Because annual appropriations may be disbursed up to 5 years beyond the appropriation year, our scope included
obligations and disbursements of FY 2008 through FY 2012 appropriations, as well as those of FY 2013.
4
 Our FY 2012 audit report showed that the Institute had not always ensured that its Superfund grant recipients
submitted timely Federal Financial Reports and progress reports, as required. However, we issued our audit report
after the end of the current audit period (FY 2013), so the Institute’s corrective actions would not have been
implemented. Thus, we will follow up on the Institute’s corrective actions in future annual audits.



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2013 (A-04-14-04024)                      4
       •   performed a limited review of the Institute’s monitoring activities for 10 judgmentally
           selected grants awarded during FY 2012 by determining whether grantees had submitted
           timely financial and performance reports to the Institute or NIH administrative offices in
           accordance with grant terms and conditions;

       •   obtained an understanding of the Institute’s controls over funding authority, financial
           reporting, and grants;

       •   compared administrative disbursements recorded during FY 2013 to disbursements
           recorded during FY 2012 to determine whether there were significant differences
           between years;

       •   reviewed 43 judgmentally selected salary and related transactions 5 for Institute
           employees who administered the Superfund totaling $195,204 to determine whether
           employee costs to administer the Superfund were allowable; and

       •   discussed the results of the audit with Institute officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




5
    Transactions included costs of personal compensation and related benefits.



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2013 (A-04-14-04024)          5
                            APPENDIX C: FEDERAL REQUIREMENTS


45 CFR § 74.51 (b)

“The HHS awarding agency will prescribe the frequency with which the performance reports
shall be submitted. Performance reports will not be required more frequently than quarterly or,
less frequently than annually.”

45 CFR § 74.52 (a)(1)(iii)

“The HHS awarding agency will determine the frequency of the Financial Status Report for each
project or program ... [h]owever, the report will not be required more frequently than quarterly or
less frequently than annually ... [and a] final report shall be required at the completion of the
agreement.”

45 CFR § 74.52 (a)(1)(iv)

“Recipients shall submit the SF-269 and SF-269A 6 (an original and two copies) no later than 30
days after the end of each specified reporting period for quarterly and semi-annual reports, and
90 calendar days for the annual and final reports.”

HHS PHS, Instructions for PHS 2590, Continuation Progress Report, Section 1.

“All [non-SNAP 7] NIH progress reports must be submitted ... on the first of the month preceding
the month in which the budget period ends, unless a different due date is indicated in the Notice
of Award.”

GAO 03-352G, Part I: Civilian Employees

“Information in time and attendance records should be promptly and properly recorded to meet
control objectives. It should be complete, accurate, valid, and comply with legal requirements.”




6
 As of February 1, 2011, the Office of Management and Budget consolidated the Financial Status Report (FSR or
SF-269/SF-269A) and the Federal Cash Transaction Report (FCTR or SF-272/SF-272A) into a single form known
as the Federal Financial Report (FFR or SF-425/SF-425A).
7
    SNAP is the Streamlined Non-competing Award Process.



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2013 (A-04-14-04024)                  6
